                                                 U.S. Department of Justice
                                                 United States Attorney
                                                 Western District of New York

                                                  Further inquiries: (716) 843-5814



                                                 138 Delaware Avenue
                                                 Buffalo, New York 14202




PRESS RELEASE
                                                 June 3, 2003


              RE:    UNITED STATES v. AMY SCHACHTER


       United States Attorney Michael A. Battle announced today that Amy Schachter, age

37, of Olean, New York, pled guilty before U.S. District Judge William M. Skretny to a

felony charge of embezzling federally guaranteed student loan funds. The maximum

penalty is five years imprisonment and a fine of $250,000.00.



       Assistant U.S. Attorney Marie P. Grisanti stated that the defendant embezzled

$248,000 in student loan money from June of 1998 through July of 2002 while employed

in the financial aid office of the Saint Francis School for Practical Nursing. Ms. Schachter

applied for student loans in her name and in the names of others.



       Ms. Grisanti said that Schachter, in her capacity as an employee in the financial aid

office for the school, falsely certified that these individuals were students at the school.

When the student loan checks were received, Schachter, or a third party, cashed the

checks and kept the money.




                                             1
                                                                                     -2-

      The guilty plea was the culmination of an investigation by the United States

Department of Education, Office of Inspector General, under the direction of Special Agent

In Charge G. E. Mathison.



      Sentencing is scheduled for September 29, 2003, at 9:00 a.m. before Judge

Skretny.

                                           ***
